                                      SOCIAL SECURITY

MEMORANDUM

Date:      September 23, 2002                                               Refer To:

To:        James C. Everett
           Regional Commissioner

From:      Inspector General

Subject:   Financial-Related Audit of Denver Department of Human Services – An Organizational
           Representative Payee for the Social Security Administration (A-05-02-12024)


           Attached is a copy of our final report. Our objectives were to determine whether the
           Denver Department of Human Services (1) had effective safeguards over the receipt
           and disbursement of Social Security benefits and (2) ensured Social Security benefits
           were used and accounted for in accordance with the Social Security Administration’s
           policies and procedures.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.




                                                          James G. Huse, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


    FINANCIAL-RELATED AUDIT OF
    THE DENVER DEPARTMENT OF
         HUMAN SERVICES
        AN ORGANIZATIONAL
  REPRESENTATIVE PAYEE FOR THE
 SOCIAL SECURITY ADMINISTRATION

    September 2002   A-05-02-12024


 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                       Executive Summary
OBJECTIVE

Our objectives were to determine whether the Denver Department of Human Services
(DDHS) (1) had effective safeguards over the receipt and disbursement of
Social Security benefits and (2) ensured Social Security benefits were used and
accounted for in accordance with the Social Security Administration’s (SSA) policies
and procedures.

BACKGROUND

Some beneficiaries under the Old-Age, Survivors and Disability Insurance (OASDI) and
recipients under Supplemental Security Income (SSI) cannot manage or direct the
management of their finances because of their youth or mental and/or physical
impairments. Congress granted SSA the authority to appoint representative payees
(Rep Payee) to receive and manage these beneficiaries’ payments.1 A Rep Payee may
be an individual or an organization. SSA selects Rep Payees when representative
payments would serve the individuals’ interests.

Rep Payees are responsible for using benefits to serve the best interests of the
beneficiary. Their duties include:

·   using benefits to meet the beneficiary’s current and foreseeable needs;

·   conserving and investing benefits not needed to meet the individual's current needs;

·   maintaining accounting records of how the benefits are received and used;

·   reporting events to SSA that may affect the individual's entitlement or benefit
    payment amount;

·   reporting any changes in circumstances that would affect their performance as
    Rep Payee; and

·   providing SSA an annual Representative Payee Report (RPR) accounting for how
    benefits were spent and invested.




1
  We use the term “beneficiary” generically in this report to refer to both Old-Age, Survivors and Disability
Insurance beneficiaries and Supplemental Security Income recipients.


Financial-Related Audit of DDHS – An Organizational Rep Payee for SSA (A-05-02-12024)                     i
DDHS is an agency under the City and County of Denver. The human services
program is County-administered and State-supervised. DDHS employs approximately
1,200 employees and serves as an organizational Rep Payee for SSA. During our
audit period, DDHS served as Rep Payee for 474 SSA beneficiaries. DDHS also
serves as the court-appointed legal custodian for children and guardian for adults who
have no one else to care for them.

RESULTS OF REVIEW

Although our audit disclosed accounting deficiencies, we concluded that DDHS
generally had effective safeguards over the receipt and disbursement of SSA funds and
ensured that Social Security benefits were used and accounted for in accordance with
SSA’s polices and procedures. With 1 exception, our review of 50 randomly selected
beneficiaries disclosed that DDHS adequately monitored and reported to SSA changes
in beneficiaries’ circumstances that could have affected their eligibility. One case of
unreported income (foster care under title IV-E) resulted in a $5,835 overpayment
because DDHS failed to properly monitor the recipient’s income. Since this was an
isolated error and SSA is requesting DDHS to return the funds, we have no
recommendation.

Despite vulnerabilities involving DDHS’ accounting controls and procedures, we
concluded DDHS was able to account for Social Security benefits received. The
specific accounting deficiencies were that DDHS did not:

·   maintain adequate documentation supporting the personal needs allowance of
    institutionalized beneficiaries;

·   ensure that recorded disbursements for children were always identified as SSA
    funds. In addition, controls were not adequate to ensure that disbursements for
    children were reflected on their monthly financial records; and

·   use actual expenditure information to report expenses for children on the RPR.

We could not determine whether DDHS properly reported to SSA how benefits were
used because SSA was unable to provide 18 of the 29 RPRs we requested. SSA was
also unable to provide 6 of the 10 applications to become Rep Payee we requested.
We also found that SSA did not record in its Representative Payee System
five beneficiaries in DDHS’ care. We provided SSA the names of the affected
beneficiaries so it could take corrective action. We also reported to SSA 13 instances
where the Rep Payee’s name was listed inaccurately on the Supplemental Security
Record.




Financial-Related Audit of DDHS – An Organizational Rep Payee for SSA (A-05-02-12024)   ii
CONCLUSIONS AND RECOMMENDATIONS
Generally, we found that DDHS met its responsibilities as Rep Payee for individuals
receiving OASDI and SSI payments. Nevertheless, DDHS needs to strengthen its
controls and procedures to improve the completeness and accuracy of its accounting
records. We recommend that SSA ensure that DDHS:

·   Document how it spent and/or saved individuals’ monthly personal needs
    allowances.

·   Record and identify funds paid from SSI and OASDI benefits on behalf of child
    beneficiaries.

·   Complete RPRs for child beneficiaries using actual expenditure information.

AGENCY COMMENTS
In response to our draft report, SSA agreed with our recommendations. See Appendix
A for the full text of SSA’s comments.

REP PAYEE COMMENTS
DHHS did not provide comments.




Financial-Related Audit of DDHS – An Organizational Rep Payee for SSA (A-05-02-12024)   iii
                                                        Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................5

    Monthly Personal Needs Allowance ..................................................................5

    SSA Disbursements for Children .......................................................................6

    Estimation of Expenditures on Rep Payee Reports...........................................6

    Rep Payee System Inaccuracies .......................................................................6

CONCLUSIONS AND RECOMMENDATIONS .......................................................7

OTHER MATTERS .................................................................................................8

    Rep Payee Reports ..........................................................................................8

    Request to be Selected as a Rep Payee ...........................................................8

    Supplemental Security Record ..........................................................................8

APPENDICES

APPENDIX A – Agency Comments

APPENDIX B - OIG Contacts and Staff Acknowledgments




Financial-Related Audit of DDHS – An Organizational Rep Payee for SSA (A-05-02-12024)
                                                                       Acronyms
DDHS              Denver Department of Human Services

OIG               Office of the Inspector General

OASDI             Old-Age, Survivors and Disability Insurance

Rep Payee         Representative Payee

RPS               Representative Payee System

RPR               Representative Payee Report

SSA               Social Security Administration

SSI               Supplemental Security Income




Financial-Related Audit of DDHS – An Organizational Rep Payee for SSA (A-05-02-12024)
                                                                             Introduction
OBJECTIVE
Our objectives were to determine whether the Denver Department of Human Services
(DDHS) (1) had effective safeguards over the receipt and disbursement of
Social Security benefits and (2) ensured Social Security benefits were used and
accounted for in accordance with the Social Security Administration’s (SSA) policies
and procedures.

BACKGROUND

Some individuals cannot manage or direct the management of their finances because
of their youth or mental and/or physical impairments. Congress granted SSA the
authority to appoint representative payees (Rep Payee) to receive and manage these
beneficiaries’ payments.1 A Rep Payee may be an individual or an organization. SSA
selects Rep Payees for beneficiaries when representative payments would serve the
individual’s interest.

REPRESENTATIVE PAYEE RESPONSIBILITIES

Rep Payees are responsible for using benefits to serve the best interests of the
beneficiary. Their duties include:

·     using benefits to meet the beneficiary’s current and foreseeable needs;

·     conserving and investing benefits not needed to meet the individual's current needs;

·     maintaining accounting records of how the benefits are received and used;

·     reporting events to SSA that may affect the individual's entitlement or benefit
      payment amount;

·     reporting any changes in circumstances that would affect their performance as
      Rep Payees; and

·     providing SSA an annual Representative Payee Report (RPR) accounting for how
      benefits were spent and invested.2

1
  42 U.S.C. §§ 405(j) and 1383(a)(2). We use the term “beneficiary” generically in this report to refer to
both Old-Age, Survivors and Disability Insurance beneficiaries and Supplemental Security Income
recipients.
2
    Id.; 20 C.F.R., part 404, subpart U, and part 416, subpart F.



Financial-Related Audit of DDHS – An Organizational Rep Payee for SSA (A-05-02-12024)                        1
About 7 million individuals have Rep Payees—approximately 4.4 million are Old-Age,
Survivors and Disability Insurance (OASDI) beneficiaries, 2 million are Supplemental
Security Income (SSI) recipients, and 600,000 are entitled to both OASDI and SSI. The
following chart reflects the types of Rep Payees and the number of individuals they
serve.


                                                            Number                 Number of
                                                               of                  Individuals
                Type of Rep Payee                          Rep Payees                Served
    Individual Payees: Parents, Spouses, Adult
    Children, Relatives, and Others                         4,949,000               6,160,000
    Organizational Payees: State Institutions,
    Local Governments, and Others                              44,150                 759,000
    Organizational Payees: Fee-for-Service                        850                  81,000
       TOTAL                                                4,994,000               7,000,000


DDHS

DDHS is an agency under the City and County of Denver. The human services
program is County-administered and State-supervised. DDHS employs approximately
1,200 employees and serves as an Organizational Rep Payee for SSA.3 During our
audit period, DDHS served as Rep Payee for 474 SSA beneficiaries. DDHS also
serves as the court-appointed legal custodian for children and guardian for adults who
have no one else to care for them. As custodian and guardian, DDHS is responsible for
the individuals’ living conditions and medical treatment. DDHS conducts periodic site
visits to the institutions and private residences that house the individuals in its care,
including SSA beneficiaries. During the site visits, DDHS ensures that beneficiaries are
residing in acceptable living conditions and that their needs are being met.




3
  An Organizational Rep Payee can be a social service agency, a Government agency official, or a
financial institution.


Financial-Related Audit of DDHS – An Organizational Rep Payee for SSA (A-05-02-12024)              2
As shown in the table below, SSA paid $262,670 to DDHS on behalf of the
50 beneficiaries we reviewed from May 1, 2000 through April 30, 2001.


                                                   Benefits Received
                            Number                                                         Total
                            of Cases               SSI               OASDI               SSA Funds
    SSI Only                   29                  $150,939                  $0             $150,939
    OASDI Only                 15                         0              80,248                80,248
    Concurrent                  6                    11,904              19,579                31,483
       Total                   50                  $162,843             $99,827             $262,670


SCOPE AND METHODOLOGY

Our audit covered the period May 1, 2000 through April 30, 2001. To accomplish our
objectives, we:

·    Reviewed the Social Security Act, SSA regulations, rules, policies and procedures
     pertaining to Rep Payees.

·    Contacted the Denver, Colorado, SSA Regional Office and the Denver, Colorado
     (Downtown), district office staff to obtain background information about the
     Rep Payee’s performance.

·    Obtained from SSA’s Representative Payee System (RPS) a list of beneficiaries
     who were in the Rep Payee’s care during our audit period (May 1, 2000 through
     April 30, 2001).

·    Obtained from the Rep Payee a list of beneficiaries who were in its care some time
     during our audit period.

·    Compared and reconciled the RPS and the Rep Payee’s listings to identify a
     population of 474 SSA beneficiaries who were in the Rep Payee’s care during our
                   4
     audit period.

·    Reviewed and tested the Rep Payee’s internal controls over the receipt and
     disbursement of OASDI benefits and SSI payments.




4
  We could not fully rely on the list obtained from the Rep Payee. Our review of its SSA beneficiary list
revealed it contained current, former, and non-SSA beneficiaries.


Financial-Related Audit of DDHS – An Organizational Rep Payee for SSA (A-05-02-12024)                       3
·   Performed the following tests for the 50 randomly selected beneficiaries included in
    our review.

    - Compared and reconciled benefit amounts paid according to the Rep Payee’s
      records to benefit amounts paid according to SSA’s records.

    - Reviewed the Rep Payee’s accounting records to determine whether benefits
      were properly spent or conserved on the individual’s behalf. We also determined
      whether SSA was due a refund for any overpaid benefits.

    - Traced a sample of recorded expenses to source documents and examined the
      underlying documentation for reasonableness and authenticity.

·   Calculated the total SSA benefits received by DDHS for the SSA beneficiaries
    during our audit period.

·   Interviewed a sample of the Rep Payee’s beneficiaries, personal guardians, or
    caregivers to determine whether their basic needs were being met.

·   Reviewed 11 RPRs to determine whether the Rep Payee properly reported to SSA
    how benefits were used.

·   Reviewed four SSA-11 (Request to Be Selected As Payee) forms submitted to SSA
    by DDHS to ensure proper signature by the Rep Payee.

·   Obtained from DDHS a list of SSA beneficiaries who resided in institutions some
    time during the period May 2000 through April 2001. Calculated the total SSA
    benefits paid to those individuals during our audit period.

We performed our audit at DDHS in Denver, Colorado, and Chicago, Illinois, between
July 2001 and May 2002. We conducted our audit in accordance with generally
accepted government auditing standards.




Financial-Related Audit of DDHS – An Organizational Rep Payee for SSA (A-05-02-12024)   4
                                                      Results of Review
Although we found accounting deficiencies, DDHS generally met its responsibilities as
Rep Payee for individuals receiving OASDI and SSI payments. Although DDHS did not
record disbursements of Social Security funds at the individual child beneficiary level,
we were able to account for the disbursements. In addition, DDHS provided adequate
services to these individuals and properly disbursed Social Security benefits. With 1
exception, our review of 50 randomly selected beneficiaries disclosed that DDHS
adequately monitored and reported to SSA changes in beneficiaries’ circumstances that
could have affected their eligibility. One case of unreported income (foster care under
title IV-E) led to an overpayment. Specifically, we found that DDHS did not identify an
SSI recipient who was collecting both title IV-E and SSI payments. Concurrent benefits
were paid from April 2000 through April 2001, resulting in a $5,835 overpayment. This
occurred because DDHS failed to properly monitor the recipient’s income. Since this
was an isolated error, and SSA is requesting DDHS to return the funds, we have no
recommendation.

We determined that DDHS could account for the use of Social Security benefits.
However, we found that DDHS did not:

·   maintain adequate documentation supporting the personal needs allowance of
    institutionalized beneficiaries;

·   ensure that recorded disbursements for children were always identified as SSA
    funds. In addition, controls were not adequate to ensure that disbursements for
    children were reflected on their monthly fiscal histories; and

·   use actual expenditure information to report expenses for children on the RPR.

MONTHLY PERSONAL NEEDS ALLOWANCE
A Rep Payee’s duties include ensuring that SSA beneficiaries’ needs are met. SSA’s
policy states that the Rep Payee of all institutionalized beneficiaries should provide at
                                                              5
least $30 each month for the beneficiaries’ personal needs. Furthermore, the
Rep Payee should keep written records of all payments received from SSA and how
those payments are spent and/or saved.6

The 474 beneficiaries in DDHS’ care included 20 individuals who had been
institutionalized (for example, nursing home). The 20 beneficiaries received a total of

5
 Representative Payment Program, Guide for Organizational Representative Payees, What is Proper Use
of Benefits, Institutionalized Beneficiaries, page 1 of 3.
6
 Representative Payment Program, Guide for Organizational Representative Payees, What Are Your
Duties As a Representative Payee, page 1 of 2.


Financial-Related Audit of DDHS – An Organizational Rep Payee for SSA (A-05-02-12024)            5
$4,380 in Social Security payments for the period May 2000 through April 2001. DDHS
provided the institutions a $30 monthly personal needs allowance. DDHS allowed
institutions to determine how to spend the personal needs allowance. However, DDHS
did not require the institutions to provide periodic reports detailing expenditures to
DDHS. DDHS should have a system in place to account for beneficiaries’ $30 personal
needs allowance. At a minimum, DDHS should require the institutions to maintain a
ledger with the beneficiary’s signature for cash disbursements and receipts for all
noncash distributions.

SSA DISBURSEMENTS FOR CHILDREN

In 24 of the 30 child cases included in our review of 50 beneficiaries, DDHS either did
not record or improperly classified the disbursement of Social Security benefits.
Although we were unable to verify that DDHS accounted for the use of benefits paid to
each individual, we were able to account for the use of benefits received. We did this
by accounting for total income received and costs paid on behalf of each individual.
We therefore were able to conclude that DDHS properly used Social Security benefits
paid for these individuals. Nonetheless, DDHS should implement controls to ensure
that the disbursement of benefits is properly recorded and classified in the financial
records for each individual.

ESTIMATION OF EXPENDITURES ON REP PAYEE REPORTS

We reviewed 11 original RPRs obtained from SSA and RPRs found in DDHS’ case
files. We found that DDHS completed RPRs for adult beneficiaries based on actual
expenditures. However, fixed percentages were used to allocate expenditures for child
beneficiaries into cost categories. Thus, DDHS estimated the total spent on food and
shelter and other expenses. In our opinion, SSA cannot adequately assess DDHS’
effectiveness as a Rep Payee based on expenditure estimates. DDHS should be
required to use actual expenditure information when reporting how much was spent for
food, housing and other things such as clothing, education, medical and dental
expenses, and recreation or personal

REP PAYEE SYSTEM INACCURACIES
SSA did not accurately record all beneficiaries in the RPS who were under DDHS’ care.
We found two beneficiaries in DDHS’ care who were recorded in RPS under another
Rep Payee. Another three beneficiaries were receiving Social Security payments but
were not recorded on RPS. We provided the names to SSA so the RPS could be
amended to show the individuals are under DDHS’ care. Consequently, we are not
recommending any further action.




Financial-Related Audit of DDHS – An Organizational Rep Payee for SSA (A-05-02-12024)     6
                                                   Conclusions and
                                                  Recommendations
We believe DDHS met its responsibilities as Rep Payee for individuals receiving OASDI
and SSI payments. Nevertheless, DDHS needs to strengthen its controls and
procedures to improve the completeness and accuracy of its accounting records. We
recommend that SSA ensure that DDHS:

1. Document how it spent and/or saved individuals’ monthly personal needs
   allowances.

2. Record and identify funds paid from SSI and OASDI benefits on behalf of child
   beneficiaries.

3. Complete RPRs for child beneficiaries using actual expenditure information.

AGENCY COMMENTS
SSA agreed with our recommendations and stated that the Denver District Office will
monitor DDHS and focus on the accounting errors disclosed by the audit. See
Appendix A for the full text of SSA’s comments to our draft report.

REP PAYEE COMMENTS

DDHS did not provide comments to our draft report.




Financial-Related Audit of DDHS – An Organizational Rep Payee for SSA (A-05-02-12024)   7
                                                                    Other Matters
REP PAYEE REPORTS

To determine whether DDHS properly reported to SSA how benefits were used, we
requested from SSA the most recently completed RPRs for 29 of DDHS’ beneficiaries.
While DDHS staff members stated they submitted RPRs to SSA for all their
beneficiaries, SSA was unable to provide 18 of the 29 RPRs requested. Because SSA
did not provide all the RPRs requested, we could not independently confirm that DDHS
met its reporting responsibilities. For the 18 RPRs SSA did not provide, we do not
know whether the DDHS actually submitted RPRs to SSA or whether the DDHS
provided them to SSA, and SSA could not locate them.

Prior audits of institutional rep payees have consistently disclosed this deficiency. The
Office of the Inspector General roll-up management advisory report for 6 months of rep
payee activities done for the 1-year period ended August 31, 2000, disclosed that SSA
was able to provide only 67 of 167 RPRs requested. The report recommended that
                                                                         7
SSA pilot the use of stored value cards as an alternative to the RPRs.

REQUEST TO BE SELECTED AS A REP PAYEE
To ensure proper signatures were obtained from DDHS, we requested from SSA the
applications to be selected Rep Payee for 10 beneficiaries. SSA was unable to provide
6 of the 10 applications we requested. As a result, we could not determine for all
applications requested, whether the signature requesting Rep Payee status and other
information was provided.

SUPPLEMENTAL SECURITY RECORD
We found the name of DDHS was inaccurately entered on the Supplemental Security
Record records of 13 beneficiaries who were in its care. We provided SSA the names
of the affected beneficiaries so it could take corrective action.




7
 Summary of Financial-Related Audits of Representative Payees for the Social Security Administration
(A-13-00-10065, August 2002)




Financial-Related Audit of DDHS – An Organizational Rep Payee for SSA (A-05-02-12024)                  8
                                           Appendices




Financial-Related Audit of DDHS – An Organizational Rep Payee for SSA (A-05-02-12024)
                                                                                       Appendix A

Agency Comments
-----Original Message-----
From:               ||DEN ORC
Sent:               Wednesday, September 18, 2002 11:33 AM
To:                 Schaeffer, Steve
Cc:                 Clement, Lorrie; ||DEN ARC MOS; ||DEN ORC
Subject:            OIG DRAFT REPORT FOR AUDIT NO. 22001051 ON REP PAYEE IN DENVER REGION--RESPONSE
Importance:         High



-----Original Message-----
From: ||DEN ORC
Sent: Wednesday, September 11, 2002 10:36 AM
To: ||DCO OPSOS; ^DCO Controls
Cc: Holman, Jackie; Everett, James; Townsend, Mary Ann; ||DEN ORC EXO; ||DEN ARC
MOS; ||DEN ORC
Subject: OIG DRAFT REPORT FOR AUDIT NO. 22001051 ON REP PAYEE IN DENVER
REGION--RESPONSE
Importance: High

Jackie,

Thank you for the opportunity to review the draft report, "Financial-Related Audit of the
Denver Department of Human Services - an Organizational Representative Payee for
the Social Security Administration." The recommendations are identical to those
presented at the close-out interview conducted by OIG via teleconference. We agree
with all recommendations. The Denver District Office will monitor the payee, Denver
Department of Human Services, and focus on the few accounting errors discovered
during the audit. Overall, the payee is doing a good job of monitoring benefits and
reporting changes to the Social Security Administration.

Please let me know if you need any additional information. Your staff may contact
Phyllis Henderson of the RSI Team at (303) 844-4268.

James




Financial-Related Audit of DDHS – An Organizational Rep Payee for SSA (A-05-02-12024)
                                                                          Appendix B

OIG Contacts and Staff Acknowledgements
OIG Contacts
   William Fernandez, Director, Western Audit Division, (510) 970-1739

   Teresa S. Williams, Deputy Director, (312) 353-0331

Acknowledgments
In addition to those named above:

   Lorrie A. Clement, Senior Auditor

   Sherman Doss, Auditor

   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-1375.
Refer to Common Identification Number A-05-02-12024.




Financial-Related Audit of DDHS – An Organizational Rep Payee for SSA (A-05-02-12024)
                             DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1
Denver Department of Human Services                                           1


Total                                                                        97
                   Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                 Office of Executive Operations

OEO supports the OIG by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and human
resources. In addition, this office is the focal point for the OIG’s strategic planning function and
the development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
